eta

Case: 19-3944

Document: 14-2

Filed: 04/02/2020

No. 19-3944

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
LARUN E. MILLER,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

(2 of 5)

Page: 1

)
)
)
)
)
)
)
)
)
)

Apr 02, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUTTON, Circuit Judge.

Larun E. Miller, a federal prisoner proceeding pro se, appeals the district court’s judgment
denying his motion to vacate his sentence, filed pursuant to 28 U.S.C. § 2255. Miller has filed an
application for a certificate of appealability (“COA”), a supporting memorandum, and a motion
for leave to proceed in forma pauperis (“IFP”).
In 2016, following a bench trial, the district court convicted Miller of attempted enticement,
in violation of 18 U.S.C. § 2422(b); attempted sexual exploitation of children, in violation of
18 U.S.C. § 2251(a) and (e); failure to register as a sex offender, in violation of 18 U.S.C.
§ 2250(a); and commission of a felony offense involving a minor when required to register as a
sex offender, in violation of 18 U.S.C. § 2260A. The district court sentenced him to a total term
of 576 months of imprisonment. This court affirmed, and the Supreme Court denied Miller’s
petition for a writ of certiorari. United States v. Miller, 696 F. App’x 696, 702 (6th Cir. 2017),
cert, denied, 138 S. Ct. 1694 (2018).
Miller filed a § 2255 motion in 2018. The district court denied his request. He now seeks
a certificate of appealability for each of the ten claims he raised below and for a few more he raises
for the first time. Miller also requests that we appoint him counsel and grant him an evidentiary
hearing.

Case: 19-3944

Document: 14-2

Filed: 04/02/2020

Page: 2

No. 19-3944
-2We may grant a certificate of appealability “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). To meet this standard,
Miller must generally show that “reasonable jurists could debate whether .. . [his] petition should
have been resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quotation
omitted). For any claims denied on procedural grounds, a slightly different standard governs.
Miller must show “at least that jurists of reason would find it debatable whether the petition states
a valid claim of the clenial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.” Id.
Miller’s sixteen grounds for a COA can be divided into three categories: (1) claims Miller
never presented to the district court, (2) claims the court denied for procedural reasons and (3)
claims the court denied on the merits. All but two, about the effectiveness of his trial and appellate
counsel, fall into the first and second categories. None is successful.
The claims Miller raises for the first time on appeal are forfeited. See United States v.
Watroba, 56 F.3d 28, 29 (6th Cir. 1995). As for those the district court thought he procedurally
defaulted, jurists of reason would not debate the court’s ruling. These claims run the gamut from
“insufficiency of the evidence” to “collusion.” But they share one thing in common: Miller could
have presented them on direct appeal. Raines v. United States, 898 F.3d 680, 687 (6th Cir. 2018)
(per curiam). Miller could avoid a default if he showed cause and prejudice for this mistake or
showed that he is actually innocent. Regalado v. United States, 334 F.3d 520, 528 (6th Cir. 2003).
But Miller did not make either showing below, nor does he attempt to do so on appeal.
That leaves Miller’s claims that his trial and appellate counsel did not provide him effective
assistance. Both are governed by the same standard. Smith v. Robbins, 528 U.S. 259, 285 (2000).
Miller must first demonstrate that his counsel’s conduct fell “below an objective standard of
reasonableness. Strickland v. Washington, 466 U.S. 668, 688 (1984). Then, he must show that
“there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Id. at 694.

(3 of 5)

Case: 19-3944

Document: 14-2

Filed: 04/02/2020

Page: 3

No. 19-3944
-3 Reasonable jurists would not debate the district court’s resolution of these claims. Miller
has not provided any evidence that his counsels’ conduct fellow below an objective standard of
reasonableness. See Jefferson v. United States, 730 F.3d 537, 547 (6th Cir. 2013). Instead, for each
issue Miller identifies, he merely cites one or two cases for a legal proposition, claims the
proceedings violated the rule and then blames his counsel for failing to investigate the issue or
make a related argument.
Take his argument that his “counsel failed to investigate and present the merits of the claim
of a pretextual arrest.” To back this up, Miller cites a few out of circuit cases explaining what
counts as a pretextual arrest and then concludes “the prejudice suffered due to counsel[’s] deficient
performance is evident upon a review of the record, where its provided that counsel did fail to
assure that his rights afforded by the United States Constitution are guaranteed.” But Miller
provides no evidence that his counsel actually failed to challenge his arrest on this basis. Nor does
he provide any evidence that would suggest Miller’s counsel acted unreasonably even assuming
he chose not to make this point.
There’s simply nothing in Miller’s filings that would allow us to overcome the “strong
presumption that counsel’s conduct [fell] within the wide range of reasonable professional
assistance.” Strickland, 466 U.S. at 689. Miller may disagree with the outcome of his trial and his
appeal. But tacking on “counsel failed to investigate” or “counsel failed to argue” to every error
Miller can think of doesn’t amount to a violation of his right to counsel.
Miller’s request for an evidentiary hearing fails for the same reason. Across the board he
has provided us with nothing but conclusory allegations. Thomas v. United States, 849 F.3d 669
(6th Cir. 2017). There’s no reason for a hearing because he offers no reason to think he’s entitled
to any relief. Id.; 28 U.S.C. § 2255(b).
As for his request for counsel, Miller does not have a constitutional right to assistance in
collateral proceedings. See Pennsylvania v. Finley, 481 U.S. 551, 555 (1987); United States v.
Clark, 221 F.3d 1336 (6th Cir. 2000). And he’s presented no reason to think his case justifies an
appointment nonetheless.

(4 of 5)

Case: 19-3944

Document: 14-2

Filed: 04/02/2020

Page: 4

No. 19-3944
-4For the foregoing reasons, this court DENIES Miller’s application for a COA and DENIES
as moot his motion for leave to proceed IFP.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(5 of 5)

No. 19-3944

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Aug 06, 2020
DEBORAH S. HUNT, Clerk

LARUN E. MILLER,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,

v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

ORDER

Before: MOORE, WHITE, and THAPAR, Circuit Judges.

Larun E. Miller petitions for rehearing en banc of this court’s order entered on April 2,
2020, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court, none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt,. Clerk

/c

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 lot20. PagelD#:1863

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

LARUN MILLER,
PETITIONER,
vs.
UNITED STATES OF AMERICA,
RESPONDENT.

)
)
)
)
)
)
)
)
)
)
)
)

CASE NOS. 1:14-CR-278
! :18-CV-2210
JUT . iE SARA LIOI
ORANDUM OPINION AND
U.HJER

Before the Court is the motion of pro se petitioner Larun Miller (“Miller”) to vacate, set
aside, or correct his sentence under 28 U.S.C. § 2255. (Doc. No. 97 [“Mot.”].) Respondent
United States of America (the “government”) opposes the motion, (Doc. No. 101 [“Opp’n”]),
and Miller has filed a reply. (Doc. No. 108 [“Reply”].) The Court granted Miller leave to file a
further memorandum in support of his motion and afforded him leave to exceed the page number
limit for such a filing. (Doc. No. 112 (Supplemental Brief [“Suppl.”]).) For the reasons that
follow, Miller’s § 2255 motion is DENIED.
I. Background
On June 22, 2005, a federal indictment issued charging Miller with travel with intent to
engage in illicit sexual conduct with a 14-year old girl, in violation of 18 U.S.C. § 2423(b). (Case
No. 5:05-cr-300, Doc. No. 7 (Indictment).) This 2005 case was assigned to the docket of the
Honorable Dan Polster. On August 23, 2005, pursuant to a plea agreement, Miller entered a
counseled plea of guilty to one count of violating 18 U.S.C. § 2423(b). (Id., Doc. No. 13 (Plea

%o

Case: l:14-cr-00278-SL Doc #: 113 Filed: 08/12/19 2 of 20. PagelD#:1864

Agreement).) On November 7, 2005, Judge Polster sentenced Miller to a term-of imprisonment
of 105 months, followed by 10 years of supervised release. (Id., Doc. No. 16 (Judgment).) As
part of the conditions of his supervised release, Miller was required to comply with all
registration requirements as a sexual offender. (Id.)
Shortly after his release from prison on the 2005 case, Miller began an online relationship
with an individual he believed was a fourteen year old girl from Colorado named “Jordan”. In
reality. “Jordan” was an undercover investigator for the Jefferson County District Attorney’s
Office, investigating internet crimes against children. Between May 28, 2014 and June 2, 2014,
the investigator—using the persona of “Jordan” and sometimes aided by a female officer—
communicated with Miller via cellular phone calls, text messages, and the internet. The
investigator ultimately determined that Miller was a registered sex offender in Ohio, and the
investigator contacted law enforcement in Ohio.
On June 2, 2014, law enforcement in Ohio learned that Miller was not living at his
registered address. The following day (June 3, 2014), members of the United States Marshals
Service and local state law officers, working together as part of a joint task force, arrested Miller
at his workplace and transported him to the Wickliffe Police Department. Once at the police
station, Miller was interviewed by a deputy federal marshal and a state police officer, after he
was read his Miranda rights and signed a written waiver. During the course of the interview,
Miller was asked questions regarding his failure to register as well as his online interactions with
“Jordan.” There is no dispute that a federal arrest warrantidid not issue until July 23, 2014-j/Miller
was arrested on federal charges on July 25, 2014 and was arraigned before a federal magistrate
judge that same day. At his arraignment, Miller waived his right to a preliminary hearing. (Doc.
2

77c

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 3 of 20. PagelD#:1865

No. 5.) A federal indictment issued on August 20, 2014. (Doc. No. 7.)
Pursuant to the superseding indictment, Miller was charged with the following: attempted
coercion and enticement of a minor to engage in unlawful sexual activity, in violation of 18
U.S.C. § 2422(b); attempted enticement or coercion of a minor to engage in sexually explicit
conduct for the purpose of producing a visual depiction of such conduct, in violation of 18
U.S.C. § 2251(a) and (e); knowingly failing to register and update registration as a sex offender
as defined for the purposes of the Sex Offender Registration and Notification Act (“SORNA”),
in violation of 18 U.S.C. § 2250(a) and (c); and committing a felony offense involving a minor
while being required to register as a sex offender, in violation of 18 U.S.C. § 2260A. (Doc. No.
35.) The SORNA violations also formed the basis for supervised release violations in Miller’s
2005 case.
At the July 25, 2014 arraignment, Attorney Darin Thompson of the Federal Public
Defender’s Office was appointed to represent Miller. Thompson subsequently moved to continue
the trial date, and at a hearing on October 16, 2014, Miller indicated in open court that he
concurred with his counsel’s request for a continuance and ultimately executed a waiver of his
speedy trial rights. (Doc. No. 12 (Waiver/Ends of Justice); Doc. No. 26 (Hearing Transcript) at
100-042.) The Court granted the motion, finding that a continuance best served the ends of
justice. (Id) Defense counsel later moved for a second continuance. (Doc. No. 14.) In the
December 23, 2014 hearing on the motion, Miller, once again, indicated that he concurred in his
counsel’s request and executed another waiver of his speedy trial rights. (Doc. No. 25 (Hearing

' By agreement with the undersigned, Judge Polster transferred the supervised release violations to the undersigned
as a related case. (Case No. 5:05-cr-300, Doc. No. 28.)
2 All page numbers refer to the page identification number generated by the Court s electronic docketing system.
3

• \

Idc

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 4 of 20. PagelD#:1866

Transcript) at 93-97; Doc. No. 15 (Waiver/Ends of Justice Order).) Following a hearing on
March 18, 2015—and at Miller’s request—Attorney Thompson was replaced by Attorney
Donald Malarcik. (See Doc. No. 31; Minutes from Mar. 18, 2015.) The Court further continued
the action on multiple occasions at the request of Miller or his counsel. (Doc. No. 32 (Motion to
Continue); Doc. No. 33 (Waiver/Ends of Justice Order); Doc. No. 38 (Waiver/Ends of Justice
Order).)
During the pendency of the case, Miller and his counsel also caused numerous
substantive pretrial motions to be filed. In one such motion, Miller sought the suppression of the
statements he made during his interview at the Wickliffe police station on June 3, 2014.
Following an evidentiary hearing, the Court granted the motion in part. (Doc. No. 34
(Memorandum Opinion).) While the Court concluded that Miller had initially knowingly and
voluntarily waived his right to counsel, the Court determined that there came a point in the
interview where he revoked his waiver and invoked his right to remain silent. {Id. at 152.)
Accordingly, the Court suppressed any statements Miller made after the point he revoked his
waiver. {Id.)
The Court conducted a bench trial, beginning on January 25, 2016 and concluding on
January 27, 2016, after which the Court took the matter under advisement. On February 1, 2016,
the Court issued its findings of fact and conclusions of law, finding Miller guilty on all four
counts in the superseding indictment. (Doc. No. 61.) At the sentencing hearing conducted on
May 19, 2016, Miller admitted to tVo of the supervised release violations, and the Court found
Miller guilty of the remaining violations based upon the testimony and evidence offered at trial.
The Court sentenced Miller to a term of imprisonment of 540 months in this case and 36 months
4

19c

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 5 of 20. PagelD#:1867

imprisonment for the supervised release violations in the 2005 case, for an aggregate sentence of
576 months, to be followed by lifetime supervised release with SORNA registration
requirements. (Doc. No. 70 (Judgment); Case No. 5:05-300, Doc. No. 32 (Order on Violation).).
Miller unsuccessfully appealed the .Court’s judgment to the Sixth Circuit Court of
Appeals and was ultimately denied certiorari review by the United States Supreme Court. (Doc.
Nos. 92, 95.) Before the Sixth Circuit, Miller challenged as “outrageous conduct” tactics used by
the interviewing officers on June 2, 201.4, the sufficiency of the evidence supporting the first two
counts of the superseding indictment, and the Court’s partial denial of his suppression motion.
(,See Doc. No. 92.) The Sixth Circuit rejected each argument on the merits.
Miller filed the present motion to vacate on September 25, 2018. He raised ten grounds
for relief: Ground One (Ineffective Assistance of Counsel), Ground Two (Violation of Fed. R.
Crim. P. 5(a)), Ground Three (Speedy Trial Violation), Ground Four (Due Process), Ground Five
(Collusion), Ground Six (Deprivation of Counsel), Ground Seven (Right to Confrontation),
Ground Eight (Procedural and Substantive Trial Errors), Ground Nine (Abuse of Discretion), and
Ground Ten (Prosecutorial Misconduct). Miller also sought leave to amend his petition to raise
additional grounds. The Court denied the motion to amend, finding that the grounds Miller
sought to add were either sufficiently raised in his existing § 2255 motion or had been rejected
by the Sixth Circuit on direct appeal. (Doc. No. 106 (Order); see Doc. No. 100 (motion to
amend).)
II. Standard of Review
A federal prisoner may attack the validity of his sentence by filing a motion to vacate, set
aside, or correct the sentence under 28 U.S.C. § 2255 in the district court where he was
5

Bo c

Case: l:14-cr-00278-SL Doc #: 113 Filed: 08/12/19 6 of 20. PagelD #: 1868

sentenced. Section 2255 sets forth four grounds upon which a federal prisoner may state a claim
for relief: “[1] the sentence was imposed in violation of the Constitution or laws of the United
States, or [2] that the court was without jurisdiction to impose such sentence, or [3] that the
sentence was in excess of the maximum authorized by law, or [4] [the sentence] is otherwise
subject to collateral attack[.]” 28 U.S.C. § 2255(a).
To prevail under § 2255, “a petitioner must demonstrate the existence of an error of
constitutional magnitude which had a substantial and injurious effect or influence on the guilty
plea or the jury’s verdict.” Griffin v. United States, 330 F.3d 733, 736 (6th Cir. 2003) (citing
Brecht v. Abrahamson, 507 U.S. 619, 637, 113 S. Ct. 1710, 123 L. Ed. 2d 353 (1993)). “Relief is
warranted only where a petitioner has shown ‘a fundamental defect which inherently results in a
complete miscarriage of justice.’” Id. (quoting Davis v. United States, 417 U.S. 333, 346, 94 S.
Ct. 2298, 41 L. Ed. 2d 109 (1974)).
The movant bears the burden of articulating sufficient facts to state a viable claim for
relief under § 2255. McQueen v. United States, 58 F. App’x 73, 76 (6th Cir. 2003) (per curiam).
Vague and conclusory claims that are not substantiated by allegations of specific facts with some
probability of verity are not enough to warrant relief. A § 2255 motion may be dismissed if it
only makes conclusory statements without substantiating allegations of specific facts and fails to
state a claim cognizable under § 2255. O’Malley v. United States, 285 F.2d 733, 735 (6th Cir.
1961); see Green v. Wingo, 454 F.2d 52, 53 (6th Cir. 1972).
A criminal defendant may not utilize a § 2255 motion as a substitute for a direct appeal.
Regalado v. United States, 334 F.3d 520, 528 (6th Cir. 2003); Capaldi v. Pontesso, 135 F.3d
1122, 1124 (6th Cir. 1998) (“An application under § 2255 is an extraordinary remedy and should
6

Sic

Case: l:14-cr-00278-SL Doc #: 113 Filed: 08/12/19 7 of 20. PagelD #: 1869

not be considered a substitute for direct appeal.”). To assert a claim not raised on direct appeal, a
petitioner ordinarily must show cause for the default and prejudice. See Bousley v. United States,
523 U.S. 614, 622, 118 S. Ct. 1604, 140 L. Ed. 2d 828 (1998); United States v. Frady, 456 U.S.
152, 167-69, 102 S. Ct. 1.584, 71 L. Ed. 2d 816 (1982).
When a factual dispute arises in a § 2255 proceeding, an evidentiary hearing is required
‘“to determine the truth of the petitioner’s claims.”’ Valentine v. United States, 488 F.3d 325,
333 (6th Cir. 2007) (quoting Turner v. United States, 183 F.3d 474, 477 (6th Cir. 1999)). A
hearing is not necessary, however, when a petitioner’s claims “‘cannot be accepted as true
because they are contradicted by the record, inherently incredible, or [are] conclusions rather
than statements of fact.’” Id. (quoting Arrendondo v. United States, 178 F.3d 778, 782 (6th Cir.
1999)). Where, as here, the judge considering the § 2255 motion also presided over the trial, the
judge may rely on her recollections of the trial. Blanton v. United States, 94 F.3d 227, 235 (6th
Cir. 1996).
III. Discussion
A.

Claims Raised on Direct Appeal

In his sixth ground, Miller argues that he was unconstitutionally deprived his right to
counsel during the “initial stages” of the investigation. (Suppl. at 1856.) In Ground Nine, Miller
insists that the Court abused its discretion in determining that the government had satisfied its
burden of proving the essential elements of Count One (attempted coercion or enticement of a
minor to engage in unlawful sexual activity, in violation of 18 U.S.C. § 2422(b)) and Count Two
(attempted enticement or coercion of a minor to engage in sexually explicit conduct for the
purpose of producing a visual depiction of such conduct, in violation of 18 U.S.C. § 2251(a) and
7

SQc,

Case: l:14-cr-00278-SL Doc #: 113 Filed: 08/12/19 8 of 20. PagelD #: 1870

(e)). (Id. at 1857-58.)
As set forth above, on direct appeal Miller specifically challenged the Court’s
determination that he had waived his right to counsel during his initial interview with law
enforcement and further challenged the sufficiency of the evidence supporting Counts One and
Two of the superseding indictment. “[A] § 2255 motion may not be employed to relitigate an
issue that was raised and considered on direct appeal absent highly exceptional circumstances,
such as an intervening change in the law.” Jones v. United States, 178 F.3d 790, 796 (6th Cir.
1999); see DuPont v. United States, 76 F.3d 108, 110-11 (6th Cir. 1996). While he offers
slightly nuanced arguments in his motion to vacate, the essence of these claims were raised on
direct appeal and addressed by the Sixth Circuit. Thus, to the extent these claims were raised on
direct appeal, and in the absence of extraordinary circumstances, Miller is barred from
reasserting them here.3
B.

Ineffective Assistance of Counsel

With the exception of Ground One (Ineffective Assistance of Counsel), the remaining
claims should have been raised on direct appeal but were not, and Miller cannot use § 2255 “to
circumvent the direct appeal process.” Regaldo, 334 F.3d at 528 (citing Frady, 456 U.S. at 16768). “The Supreme Court consistently has determined that ‘to obtain collateral relief a prisoner
must clear a significantly higher hurdle than would exist on direct appeal.’” Id. (quoting Frady,
456 U.S. at 166). “Accordingly, claims that could have been raised on direct appeal, but were
not, will not be entertained via a motion under § 2255 unless the petitioner shows: (1) cause and

3 To the extent Ground Four (Due Process) raises issues that were raised and rejected on direct appeal, Miller is
barred from raising those issues as well. (See Suppl. at 1848-49, 1850,1853.)
8

?3c

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 9 of 20. PagelD #: 1871

prejudice to excuse his failure to raise the claims previously; or (2) that he is ‘actually innocent’'
of the crime.” Rayv. United States, 721 F.3d 758, 761 (6th Cir. 2013) (citing Bousley, 523 U.S.
at 622).
Miller does not argue that he is actually innocent of the charges. Rather, in Ground One,
he suggests that his trial and appellate counsel provided constitutionally ineffective assistance. In
support of this claim, he argues, in part, that counsel erred in failing to raise some of the asserted
grounds at trial or on direct appeal. Ineffective counsel may amount to “cause” that excuses
procedural default. See Nagi v. United States, 90 F.3d 130, 134-35 (6th Cir. 1996). The Court
must determine both whether Miller’s ineffective assistance of counsel claim is viable as a stand­
alone claim, and whether it can serve as the cause to excuse the procedural default for Grounds
Two through Five.
Miller’s ineffective assistance of counsel claim is governed by the familiar standard
established in Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984).
Under this standard, a petitioner must demonstrate that counsel’s performance was deficient, and
that this deficient performance caused prejudice to the petitioner. Strickland, 466 U.S. at 687. To
demonstrate that counsel’s performance was deficient, a petitioner must show that counsel
“made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed the
[petitioner] by the Sixth Amendment.” Id. To establish that the deficient performance caused
prejudice to the petitioner, he must show that the counsel’s errors were so serious that the
petitioner was deprived a fair trial. Id. Essentially, a petitioner must establish, “that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Id. at 694.
9

Wc.

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 10 of 20. PagelD#:1872

“The reviewing court’s scrutiny of counsel’s performance is highly deferential,” and
‘“counsel is strongly presumed to have rendered adequate assistance and made all significant
decisions in the exercise of reasonable professional judgment.’” McQueen v. Scroggy, 99 F.3d
1302, 1311 (6th Cir. 1996) (quoting Strickland, 466 U.S. at 689, 690), overruled on other
grounds by In re Abdur’ Rahman, 392 F.3d 174 (6th Cir. 2004). A petitioner’s disagreements
with the strategies or tactics of counsel are not enough to support an ineffective assistance of
counsel claim. Strickland at 689; see McQueen, 99 F.3d at 1311 (“[TJrial counsel’s tactical
decisions are particularly difficult to attack, and a defendant’s challenge to such decisions must
overcome a presumption that the challenged action might be considered sound trial strategy.”)
(quotation marks and citations omitted).
A criminal defendant does not have a constitutional right to demand that his trial counsel
raise every possible issue. A failure to raise a claim will not amount to ineffectiveness so long as
counsel “exercise[d] reasonable professional judgment.” Joshua v. DeWitt, 341 F.3d 430, 441
(6th Cir. 2003). In fact, it is well settled that counsel cannot be ineffective for refusing to raise
baseless arguments. See Hoffner v. Bradshaw, 622 F.3d 487, 499 (6th Cir. 2010) (finding that
counsel was not constitutionally ineffective for not pursuing meritless claims); Krist v. Foltz, 804
F.2d 944, 946 (6th Cir. 1986) (noting that “[a]n attorney is not required to present a baseless
defense or to create one that does not exist”).
Similarly, “[t]he Supreme Court has made clear that a criminal defendant has no
constitutional right to demand that appellate counsel raise every possible colorable issue on
appeal.” Lee v. Haas, 197 F. Supp. 3d 960, 973 (E.D. Mich. 2016) (citing Jones v. Barnes, 463
U.S. 745, 751, 103 S. Ct. 3308, 77 L. Ed. 2d 987 (1983)). “[Wjinnowing out weaker arguments
10

85 c.

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 11 of 20. Page!D#:1873

on appeal and focusing on those most likely to prevail, far from being evidence of incompetence,
is the hallmark of effective appellate advocacy,” Smith v. Murray, All U.S. 527, 536, 106 S. Ct.
2661,91 L. Ed. 2d 434 (1986), and a failure to raise a claim will not amount to ineffectiveness so
long as counsel “exercise[d] reasonable professional judgment.” Joshua, 341 F.3d at 441.
Further, even if the rejected claim is non-frivolous, the required showing of prejudice cannot be
made if the claim lacks merit. Burton v. Renico, 391 F.3d 764, 774 (6th Cir. 2005), “Generally,
only when ignored issues are clearly stronger than those presented, will the presumption of
effective assistance of counsel be overcome.” Monzo v. Edwards, 281 F.3d 568, 579 (6th Cir.
2002) (quotation marks and citation omitted); see also Greer v. Mitchell, 264 F.3d 663, 676 (6th
Cir. 2001) (holding that appellate counsel “cannot be ineffective for a failure to raise an issue
that lacks merit”).
In regard to investigation, defense counsel has a duty to conduct reasonable
investigations or make a reasonable decision that investigations are unnecessary. See Sims v.
Livesay, 970 F.2d 1575, 1580-81 (6th Cir. 1992) (citing Strickland, 466 U.S. at 691). “While the
temptation to rely on hindsight is particularly strong in the context of ineffective assistance
claims based on counsel’s failure to investigate, the court must conclude that counsel’s strategic
choices made after less than complete investigation are not constitutionally deficient if a
reasonable professional judgment supports the limitations on investigation.” Carson v. United
States, 3 F. App’x 321, 324 (6th Cir. 2001) (citing Coe v. Bell, 161 F.3d 320, 343 (6th Cir.
1998)).
■ 1.

Delay in Presentment

Miller insists that his trial counsel was ineffective for failing to raise a delay in
11
%

a

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 12 of 20. PagelD#:1874

presentment claim. (Suppl. at 1837-38; see Ground Two (Rule 5(a)); Ground Five (Collusion).)
Constitutional law dictates that “federal courts . . . must exclude confessions obtained during a
period of undue delay in bringing the defendant[] before a magistrate. The rationale for this
ruling is found in preventing the police from obtaining confessions during the period of delay so
as to avoid the giving of notice to the accused that he has certain rights, including the right to
counsel, and the right to remain silent.” United States v. Torres, 663 F.2d 1019, 1023 (6th Cir.
1981) (citing McNabb v. United States, 318 U.S. 332, 63 S. Ct. 608, 87 L. Ed. 819 (1943);
Mallory v. United States, 354 U.S. 449, 77 S. Ct. 1356, 1 L. Ed. 2d 1479 (1957)). Known as the
McNabb-Mallory rule, this rule has been codified at Rule 5(a) of the Federal Rules of Criminal
Procedure and requires that an arresting officer take the arrested person before a federal
magistrate “without unnecessary delay.” See Torres, 663 F.2d at 1023 (quoting Fed. R. Crim. P.
5(a)).
. Under Rule 5(a), the period of delay is measured from the beginning of federal detention.
Torres, 663 F.2d at 1023 (collecting cases); see United States, v. Davis, 459 F.2d 167, 170 (6th
Cir. 1972). Because Miller was arraigned in federal court and waived his right to a preliminary
hearing on July 25, 2014, the same day he was taken into federal custody, the government argues
that there was no Rule 5 violation. (Opp’n at 1582.)
Nonetheless, Miller argues that federal authorities colluded with state law enforcement to
detain him in state custody from June 3, 2014 to July 25, 2014. “When . . . federal and state
officials have a working arrangement to elicit information from an accused before taking him
before a magistrate, delay is measured from the time state custody commences.” United States v.
Barlow, 693 F.2d 954, 958 (6th Cir. 1982) (collecting cases). “However, a working relationship
12

?7c

Case: l:14-cr-00278-SL Doc #: 113 Filed: 08/12/19 13 of 20. PagelD #: 1875

alone will not start the McNabb-Mallory clock. There must also be evidence that the arrangement
between state and federal authorities was ‘illegitimate,’ that is, that it was ‘for the purpose of
aiding and abetting the federal officers in carrying on interrogation of the suspect in violation of
Federal Rule 5(a) requiring prompt arraignment.’” United States v. Myers, 354 F. Supp. 3d 785,
796 (E.D. Mich. 2019) (quoting Davis, 459 F.2d at 170) (further quotation marks and citation
omitted); see Barlow, 693 F.2d at 958-59 (“This collaborative effort must be specifically
designed to circumvent the requirements of Rule 5(a), that is, designed to produce evidence
which would not be admissible if the defendant were in federal custody the entire time.”) The
burden of proving an improper motive rests with the defendant. See Torres, 663 F.2d at 1024
(citing cases).
Here, the record is clear that state and federal law enforcement were openly working
together as part of a joint task force to investigate the crimes that formed the basis for the present
federal action, as Miller was initially interviewed by members federal and state law enforcement.
But while there was surely a working relationship, Miller has failed to come forward with any
evidence that this collaborative effort was undertaken to circumvent Rule 5(a). Neither Miller’s
“bare suspicion” of a collusive scheme, nor his request to develop such evidence in an
evidentiary hearing, is sufficient to meet his burden of proof. See Torres, 663 F.2d at 1024.
Moreover, he has failed to explain how further probing by his trial counsel would have
uncovered such a torrid plot. For this reason alone, Miller’s counsel cannot have been ineffective
for failing to raise this issue.4

4 To the extent Ground Four (Due Process) raises a delay in presentment claim, it would also fail on the merits for
the same reason. (See Suppl. at 1843, 1845, 1847, 1850-51.)
13
:

Case: l:14-cr-00278-SL Doc #: 113 Filed: 08/12/19 14 of 20. PagelD #: 1876

Such a claim would have failed for the additional reason that Miller waived his Miranda
rights before giving his statement to federal and state authorities. “[W]aiver of one’s Miranda
rights also constitutes a waiver under McNabb-Mallory.” Barlow, 693 F.2d at 959 (collecting
cases). In the present case, the Court found, and the Sixth Circuit affirmed on appeal, that Miller
waived his Miranda rights before giving his statement, and he is precluded, therefore, from
seeking the protections of the McNabb-Mallory rule, as codified in Rule 5(a).
2.

Speedy Trial

Miller also insists that trial counsel erred in failing to raise a speedy trial violation.
(Suppl. at 1837; see Ground Three (Speedy Trial).) The government counters that defense
counsel could not have been ineffective for failing to raise this issue as the time limit under the
Speedy Trial Act was not exceeded.
“The [Speedy Trial] Act generally requires a federal criminal trial to begin within seventy
days after a defendant is charged or makes an initial appearance, 18 U.S.C. 3161(c)(1), but the
Act contains a detailed scheme under which certain specified periods of delay are not counted.”5
United States v. Brown, 498 F.3d 523, 529 (6th Cir. 2007). Among the exclusions found in the
Act relevant to the present case are: delays resulting from the filing of pretrial motions and
delays resulting from the granting of a continuance upon the finding that the ends of justice
served by a continuance outweigh the best interest of the public and the defendant in a speedy

5 The Speedy Trial Act also requires that an indictment be filed within thirty days of the date of arrest. 18 U.S.C. §
3161(b). Miller argues that his statutory rights were violated because he was arrested on June 3, 2014 and the federal
indictment did not issue until August 20, 2014. (Suppl. at 1842.) However, as set forth above, his time in state
custody does not count toward the pre-indictment running of the federal statute. Here, Miller was arrested and taken
into federal custody on July 25, 2014, and the indictment was filed within 30 days of his federal arrest. Accordingly,
there was no preindictment violation, and counsel was not ineffective for failing to argue otherwise.
14

%9c

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 15 of 20. PagelD#:1877

trial. 18 U.S.C. § 3161(h).
Miller acknowledges, as he must, that shortly after the indictment issued, his counsel
moved for a continuance, citing the need for additional time to prepare and review discovery.
(Doc. No. 11.) He offers, without support, his “belief’ that counsel requested the continuance “to
assist the government in concealing their circumventing the time requirement of the Speedy Trial
Act.” (Suppl. at 1842.) Yet, the record reflects that Miller consented to the continuance and
executed a waiver of his right to a speedy trial. (Doc. No. 12.) Where, as here, a defendant
requests or consents to a continuance, he may not complain about the exclusion of time from the
speedy trial clock. United States v. Baker, 562 F. App’x 447, 452 (6th Cir. 2014) (citing, among
authority, United States v. Howard, 218 F.3d 556, 562 (6th Cir. 2000)). Even without Miller’s
consent, however, “[t]he court satisfied the ends-of-justice requirements because it tracked the
language of the statute and granted the motion[] to continue to give the defense additional time to
prepare.” See Baker, 562 F. App’x at 453 (citing United States v. Jordan, 544 F.3d 565, 666 (6th
Cir. 2008)). (Doc. No. 12 at 41; Minutes from Oct. 16,2014.)
Miller filed additional motions for continuances, and, in each instance, upon Miller’s
waiver of his statutory right to a speedy trial, the Court granted the motion after making the
proper ends-of-justices determinations. (See Doc. Nos. 14, 15, 32, 33; Minutes from Dec. 23,
2014, Feb. 18, 2015, Feb. 27, 2015.) In each instance, Miller signed an ends-of-justice waiver,
and the Court conducted a colloquy with Miller regarding his desire to waive his speedy trial
rights. (See Doc. Nos. 15, 33, 38.) In fact, Miller’s third request for a continuance was prompted
by his pro se letter to the Court requesting the appointment of new counsel. After a hearing, the
Court appointed new counsel and continued the matter to permit new counsel the opportunity for
15

9oc

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 16 of 20. PagelD#:1878

effective preparation. (See Minutes from Mar. 18, 2015.)
In addition to Miller’s pro se motion for new counsel, the Court received numerous other
uncounseled and counseled defense motions—including motions to dismiss, a motion to sever,
and motions to suppress—that each had the effect of further tolling the running of the speedy
trial clock. (See Doc. Nos. 20, 31,41, 55, 60.) Because all of these periods of delay are properly
excluded in computing the time limitations specified in § 3161, Miller would have been unable
to establish that his statutory right to a speedy trial had been violated. As such, his counsel
cannot have been ineffective for failing to raise this baseless claim.
3.

Due Process

Ground Four is a catchall claim that encompasses many of the claims previously
addressed herein or raised and rejected on direct appeal. While Miller insists that he has
“overwhelming evidence to support his allegations of misconduct committed by members of the
United States [MJarshal’s Service and [t]he United States Attorney’s Office,” he fails to identify
any evidence to support his recurring allegations of collusion, misdirection, and concealment.6
(See Suppl. at 1850.) These conclusory allegations, unsupported by articulated facts, are
insufficient to state a viable claim for relief. See McQueen, 58 F. App’x at 76; Green, 454 F.2d at
53. Because these claims would not entitle Miller to relief from his sentence, counsel was not
ineffective for failing to raise them.

6 For example, Miller claims that his trial counsel was ineffective for failing to investigate and challenge the search
of his vehicle and cell phone on the basis that his arrest on supervised release violations was a “ruse” for obtaining
evidence to support the charges in the present case. However, the fact remains that Miller admitted to two of the
supervised release violations and the evidence at trial established the remainder of the violations. At the suppression
hearing, trial counsel elected to focus on the voluntariness of Miller’s waiver of his Miranda rights, and he was
successful in getting a portion of Miller’s statements suppressed. Selecting'to focus on the strongest issues, while
discarding those that find no support in the record, is the hallmark of effective' advocacy and cannot support a
finding of ineffectiveness.
16

9/c

Case: l:14-cr-00278-SL Doc #: 113 Filed: 08/12/19 17 of 20. PagelD #: 1879

4.

18 U.S.C. § 2260A

Miller also argues that counsel was ineffective for failing to argue that 18 U.S.C. §
2260A was unconstitutional, as it was applied to him, because a violation of § 2260A requires
offense conduct involving an actual minor and he was convicted of misconduct involving an
agent posing as a minor. In support, he cites United States v. Dahl, 81 F. Supp. 3d 405, 407 (E.D.
Pa. 2015), wherein a district court in the Third Circuit ruled that the language in § 2260A
“involving a minor” applies only to actual individuals under the age of 18 and not agents posing
as underage persons. However, in United States v. Slaughter, 708 F.3d 1208 (11th Cir. 2013), the
Eleventh Circuit declined to reach the question of whether § 2260A, without limitation, always
required the involvement of an actual minor, because the defendant’s § 2260A conviction was
predicated on his conviction for attempted enticement of a minor under § 2422. Because § 2422
permitted attempted crimes (including attempts involving government agents posing as minors),
and finding “nothing in the plain language of § 2260A that negates the plain language of §
2422(b),” the court affirmed the defendant’s § 2260A conviction. Id. at 1215-16 (“when a §
2260A conviction is predicated on a violation of § 2422, a defendant may be convicted even
where his conduct did not involve an actual minor”); see also United States v. Beckman, 624 F.
App’x 909, 919 (6th Cir. 2015) (citing Slaughter with favor for the proposition that § 2422
includes attempted crimes). Like the defendant in Slaughter, Miller’s § 2260A’s conviction was
predicated on a violation of § 2422, well as a violation of § 2251, both crimes encompassing
attempted acts. {See Superseding Indictment at 159-61.)
All federal statutes are presumed constitutional. Munn v. Illinois, 94 U.S. 113, 123, 24 L.
Ed. 77 (1876); see Liberty Coins, LLC v. Goodman, 748 F.3d 682, 694 (6th Cir. 2014). At best,
17
,\

9He

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 18 of 20. PagelD#:1880

Miller has identified a split in persuasive authority as to whether § 2260A, a presumptively
constitutional statute, can be satisfied by attempted crimes. Given the lack of binding authority
and the fact that Miller’s § 2260A conviction was premised on crimes that were properly charged
as attempts, the Court cannot find that trial counsel’s failure to raise a constitutional challenge to
§ 2260A fell outside the “wide range of reasonable professional assistance^]”7 Strickland, 466
U;S. at 689.
Because none of his constitutional arguments has merit, Miller’s trial counsel was not
ineffective for failing to pursue them, and Miller cannot establish either prong of the Strickland
standard. See Burton, 391 F.3d at 774 (the required showing of prejudice for an ineffective
assistance of counsel claim cannot be made if the unasserted argument lacks merit); Goff v.
Bagley, 601 F.3d 445, 469 (6th Gir. 2010) (appellate counsel was not ineffective for failing to
raise a patently frivolous argument).
Of course, even if Miller could meet the Strickland standard for ineffectiveness as to his
first ground for relief, it still would not be sufficient to overcome the procedural bar to federal
review as to the remaining defaulted claims because “actual prejudice to excuse a habeas
petitioner’s procedural default requires more than the prejudice prong under Strickland.” Jones v.
Bell, 801 F.3d 556, 563 (6th Cir. 2015). “In fact, [the court] do[es] not presume actual prejudice
even when the counsel’s error resulted in Strickland prejudice.” Id. Instead, to satisfy this
7 Miller also asserts that trial counsel was constitutionally ineffective for failing to argue that the images Miller
intended to obtain were not “lascivious,” and that Miller did not take a substantial step necessary to sustain a
conviction under 18 U.S.C. § 2422(b). However, the record reflects that counsel advanced both of these arguments.
(Doc. No. 88 (Trial Transcript I) at 958, 960-61; Doc. No. 90 (Trial Transcript III) at 1405-06.) Further, while
Miller complains that trial counsel failed to argue that Miller did not know of the images on his phone, the evidence
offered at trial demonstrated that many of the images were associated with chats engaged in by Miller. Therefore,
alleging that Miller was unaware of the images would not have been a reasonable trial tactic.
18

?3c

■

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 19 of 20. PagelD #: 1881

burden, a habeas petition must demonstrate with “a reasonable probability that, but for his
counsel’s unreasonable failure to raise this issue on appeal, he would have prevailed.” Moore v.
Mitchell, 708 F.3d 760, 776 (6th Cir. 2013) (quotation marks and citations omitted).
Furthermore, a petitioner “must shoulder the burden of showing, not merely that the errors at his
trial created a possibility of prejudice, but that they worked to his actual and substantial
disadvantage, infecting his entire trial with error of constitutional dimensions.” Frady, 456 U.S.
at 170. “The ‘most important aspect to this inquiry is the strength of the case against the
defendant” and whether a trial without errors would still have resulted in conviction.’” Jones,
801 F.3d at 563 (quoting Ambrose v. Booker, 684 F.3d 638, 652 (6th Cir. 2012)). Miller’s
objection does not demonstrate that prejudice occurred to the point that his entire trial was
affected and that he experienced actual and substantial disadvantage.
C.

Remaining Claims are Procedurally Defaulted

The remaining four grounds (Grounds Seven through Ten) were never raised on appeal,
nor are they otherwise impacted by Miller’s ineffective assistance of counsel claim. These
claims, therefore, are procedurally defaulted, and Miller has failed to demonstrate cause and
prejudice for the default. See Regalado, supra.
D.

Evidentiary Hearing

Finally, the Court finds that Miller is not entitled to an evidentiary hearing. As set forth
above, his claims are either in direct conflict with the record, do not entitle him to relief even if
true, or were thoroughly considered and rejected on appeal. Further, his conclusory allegations,
unsupported by articulated facts, fail to raise any factual disputes for which a hearing is
warranted. Arrendondo, 178 F.3d at 782; see also Fontaine v. United States, 411 U.S. 213, 93 S.
19

94c

Case: l:14-cr-00278-SL Doc#: 113 Filed: 08/12/19 20 of 20. PagelD#:1882

Ct. 141, 36 L. Ed. 2d 169 (1973). Accordingly, Miller’s request for an evidentiary hearing is •
DENIED.
IV. Conclusion
For the foregoing reasons, Miller’s motion to vacate, set aside, or correct his sentence
(Doc. No. 97) is DENIED and this case is DISMISSED. Further, the Court CERTIFIES that an
appeal from this decision could not be taken in.good faith, and that there is no basis upon which
to issue a certificate of appealability. 28 U.S.C. § 2253; Fed. R. App. P. 22(b).
IT IS SO ORDERED.

Dated: August 12, 2019
HONORABEE SARA LIOI
UNITED STATES DISTRICT JUDGE

20

?5c

Case: l:14-cr-00278-SL Doc#: 114 Filed: 08/12/19 1 of 1. PagelD#:1883

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

LARUN MILLER,
PETITIONER,
vs.
UNITED STATES OF AMERICA,
RESPONDENT.

)
)
)
)
)
)
)
)
)
)
)
)

CASE NOS. 1:14-CR-278
1:18-CV-2210
JUDGE SARA LIOI
JUDGMENT ENTRY

For reasons set forth in the contemporaneously filed memorandum opinion and order, the
motion of petitioner Larun Miller to vacate, set aside, or correct his sentence (Doc. No. 97) is
DENIED and this case is DISMISSED. Further, the Court CERTIFIES that an appeal from this
decision could not be taken in good faith, and that there is no basis upon which to issue a
certificate of appealability. 28 U.S.C. § 2253; Fed. R. App. P. 22(b).
IT IS SO ORDERED

Dated: August 12, 2019
HONORABLE SARA LIOI
UNITED STATES DISTRICT JUDGE

9Cc

Case: l:14-cr-00278-SL Doc #: 59 Filed: 01/24/16 1 of 9. PagelD #: 568

IN THE UNITED STATES DISTRICT-COURT
FOR THE NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
LARUN MILLER,
Defendant.

)
)
)
)
)
)
)
)
)

CASE NO.: 1:14CR278
JUDGE: SARA LIOI

DEFENDANT'S TRIAL BRIEF

NOW COMES Defendant Larun Miller, by and through counsel, and
respectfully submits this Trial Brief in accordance with the Order of this Court.

STATEMENT OF FACTS
Mr. Miller was arrested on June 3, 2014 at his place of employment for
failing to register under 18 U.S.C. 2250. A search incident to arrest and search
of his motor vehicle revealed a cell phone. Mr. Miller was interviewed on video
at the Wickliffe Police Department. Mr. Miller was eventually charged with
enticement, 18 U.S.C. 2422(b), committing a felony offense involving a minor

f7c

Case: l:14-cr-00278-SL Doc #: 58 Filed: 01/22/16 10 of 10. PageiD #: 567

:ERTIFICATE OF SERVICE
I hereby certify that on this 2Xnd day of January 2016 a copy of the foregoing document
was filed electronically. Notice of this fning will be sent to all parties by operation of the Court's
electronic filing system. All other parties wrn be served by regular U.S. Maif Parties may
access this filing through the Court's system.

/siCarmen E. Henderson
Carh\en E. Henderson
Assistant U.S. Attorney

10 .

Case: l:14-cr-00278-SL Doc #: 59 Filed: 01/24/16 2 of 9. PagelD #: 569

while under a duty to register, 18 U.S.C. 2260(A) and enticing a minor to
produce child pornography 18 U.S.C. 2251. The “minor” Mr. Miller committed
these alleged crimes is an adult undercover police officer.

Contact between Mr. Miller and the officer started on Wednesday May 28,
2014 at 2:55pm on a chat site. The conversations continued via email, texts
and recorded telephone calls. The last communication between Mr. Miller and
the officer occurred on Tuesday June 3, 201,4 at 6:04am, shortly before he was
arrested. During these conversations Mr. Miller initially stated he would travel
to Colorado to see the officer. There is no evidence Mr. Miller ever took a
substantial step towards traveling to Colorado (purchasing a plane/bus ticket
reserving a hotel, etc.). After Mr. Miller failed to travel to Colorado, the
conversation shifted to the officer boarding a bus to meet Mr. Miller. Again
there is no evidence Mr. Miller ever took a substantial step toward having the
officer travel to meet him.
Although there was discussion of the officer photographing herself, Mr.
Miller stated on several occasions that he was not interested in nude pictures.
Additionally, there is no evidence Mr. Miller ever took a substantial step
towards the production of child pornography.
Finally, on Sunday June 1,2014, after Mr. Miller failed to respond to
messages, the officer threatened to kill herself stating:

98 c

Case: l:14-cr-00278-SL Doc #: 59 Filed: 01/24/16 3 of 9. PagelD #: 570

“I guess u like to play games and were messin with me huh ok fuck this I
will take care of my lousy fucking life and how people fuck with me and I
willlliilll leave this worthless world and put in my note how u pushed me over
the edge maybe some fucking show like 20-20 or something willlllll show how
fuck heads who play games push people over the edge
game u and I will play I willllllll win

So the last

GAME ON.......I’M ENDING THIS

GAME AND ME

CONTROLLING LAW OF ISSUES TO BE RAISED AT TRIAL
While the Government has accurately stated relevant case law in its Trial
Brief as submitted to this Court, additional considerations beyond the current,
immediately applicable case law of the Sixth Circuit must be addressed.
COUNT 1
Count 1 charges Defendant with attempting to persuade, induce, entice,
and coerce a minor to engage in illegal sexual activity in violation of 18 U.S.C.
§ 2422(b). As the Sixth Circuit has held in United States v. Roman, 795 F.3d
511,516 (6th Cir 2015), “the essence of the crime is the defendant's
communication or attempted communication with a minor child with the intent
to transform the minor into a sexual victim.” Id., citing United States v. Hughes,
632 F.3d 956, 961 (6th Cir.2011) [emphasis added]. This interpretation of

t

99c

Case: l:14-cr-00278-SL Doc #: 59 Filed: 01/24/16 4 of 9. PagelD#:571

Congressional intent in the enactment of 18 U.S.C. § 2422(b) necessitates an
analysis of Defendant’s intent.
Here, the apparent intent behind Defendant’s communications with
undercover agent in Colorado cannot conclusively be characterized as an
intent to persuade, induce, entice, and coerce a minor to engage in illegal
sexual activity, as required for a violation of 18 U.S.C. § 2422(b), when taken in
context of the behavior and communications of the undercover agent.
The Sixth Circuit has stated,
It has long been held that a law enforcement officer's
conduct might be “so outrageous that due process
principles would absolutely bar the government from
invoking judicial processes to obtain a conviction.” United
States v. Russell, 411 U.S. 423, 431, 93 S.Ct. 1637, 1642,
36 L.Ed.2d 366 (1973). In determining whether police
conduct has undermined constitutional due process
protections, four factors are considered:
(1) the need for the type of government conduct in
relationship to the criminal activity;
(2) the preexistence of a criminal enterprise;
(3) the level of the direction or control of the criminal
enterprise by the government;
(4) the impact of the government activity to create the
commission of the criminal activity.
United States v. Moore, 916 F.2d 1131,1139 (6th Cir. 1990), (citations omitted).
Here, (1) the need for the type of government conduct in relationship to the
criminal activity is high to protect children. However, in this instance there was
no (2) preexisting criminal enterprise, the Government (3) took control of the
direction of the conversation between Defendant and the undercover agent,
and (4) the impact of the Government’s activity created Defendant’s

Case: l:14-cr-00278-SL Doc #: 59 Filed: 01/24/16 7 of 9. PagelD #: 574

comments of “I willllllllll leave a this worthlessssss world” [sic] and “i’M
ENDING THSI GAME AND ME” [sic] fall squarely within the category of suicidal
comments found to constitute improper governmental inducement by the First
and Tenth Circuits. Without such inducement, Defendant would not have
continued his communications with the undercover agent.
As the Sixth Circuit stated in United States v. Baity, infra, “The
prosecution must have presented evidence of objective, overt acts that would
allow a reasonable jury to find Bailey had taken a substantial step toward
persuading, inducing, enticing, or coercing a minor to engage in illegal sexual
activity. “A substantial step must be something more than mere preparation....
[I]t must be necessary to the consummation of the crime and be of such a
nature that a reasonable observer, viewing it in context could conclude beyond
a reasonable doubt that it was undertaken in accordance with a design to
violate the statute.”.” United States v. Bailey, 228 F.3d 637, 640 (6tn Cir. 2000),
citing United States v. Manley, 632 F.2d 978, 987-88 (2d Cir.1980). Here,
Defendant’s communications were not intended as a substantial step to
persuade a minor to engage in illegal sexual activity in violation of 18 U.S.C. §
2422(b), but were role play so as to not further upset a minor who had
expressed suicidal intent.
COUNT 2
Count 2 charges Defendant with attempting to persuade a minor to
engage in sexually explicit conduct for the purpose of producing a visual
/<2/C

i.

Case: l:14-cr-00278-SL Doc#: 59 Filed: 01/24/16 5 of 9. PagelD #: 572

commission of the criminal activity.
Following a period of silence after Defendant broke off communications
with the undercover agent, the agent re-initiated communication with
Defendant on May 28, 2014 with the following message:
... u like to play games and were messin with me huh ok
fuck this I will take care of my lousy fucking life and how
people fuck with me and I willllllllll leave a this
worthlessssss world and put in my [ ] how u pushed me
over the edge maybe some fucking show like 20-20 or
something Willllllll show how fuck heads who play games
..... So the last
push people over the edge
game u play I willllllllill win ...
GAME ON.......
I’M ENDING THSI GAME AND ME [sic] [emphasis added]
Courts have held, "[e]ven a willing defendant may claim a violation of
due process if the government's conduct has reached a ‘demonstrable level of
outrageousness.”’ United States v. Bradiey, 820 F.2d 3, 7 {1st Cir. 1987). As
Justice Stewart explained in his dissent in United States v. Russell, infra, “the
focus of this approach is not on the propensities and predisposition of a
specific defendant, but on 'whether the police conduct revealed in the
particular case falls below standards, to which common feelings respond, for
the proper use of governmental power.’ Sherman v. United States, 356 U.S., at
382, 78 S.Ct., at 825. Phrased another way, the question is whether—
regardless of the predisposition to crime of the particular defendant involved—
the governmental agents have acted in such a way as is likely to instigate or
create a criminal offense.” United States v. Russell, 411 U.S. 423, 441,93 S. Ct.
1637,1647, 36 L. Ed. 2d 366 (1973).

/ode

Case: l:14-cr-00278-SL Doc #: 59 Filed: 01/24/16 7 of 9. PagelD #: 574

comments of “I willllilllll leave a this worthlessssss world” (sic] and “I’M
ENDING THSI GAME AND ME” [sic] fall squarely within the category of suicidal
comments found to constitute improper governmental inducement by the First
and Tenth Circuits. Without such inducement, Defendant would not have
continued his communications with the undercover agent.
As the Sixth Circuit stated in United States v. Baity, infra, “The
prosecution must have presented evidence of objective, overt acts that would
allow a reasonable jury to find Bailey had taken a substantial step toward
persuading, inducing, enticing, or coercing a minor to engage in illegal sexual
activity. "A substantial step must be something more than mere preparation....
[I]t must be necessary to the consummation of the crime and be of such a
nature that a reasonable observer, viewing it in context could conclude beyond
a reasonable doubt that it was undertaken in accordance with a design to
violate the statute.”.” United States v. Bailey, 228 F.3d 637, 640 (6tn Cir. 2000)
citing United States v. Manley, 632 F.2d 978, 987-88 (2d Cir.1980). Here,
Defendant’s communications were not intended as a substantial step to
persuade a minor to engage in illegal sexual activity in violation of 18 U.S.C. §
2422(b), but were role play so as to not further upset a minor who had
expressed suicidal intent.
COUNT 2
Count 2 charges Defendant with attempting to persuade a minor to
engage in sexually explicit conduct for the purpose of producing a visual

loHc

Case: l:14-cr-00278-SL Doc #: 59 Filed: 01/24/16 8 of 9. PagelD #: 575

depiction of such conduct, in violation of 18 U.S.C. § 2251(a). In its Trial Brief,
the Government raises the issue of Defendant’s intent to obtain a lascivious
image.
At issue in trial will be whether Defendant’s communications were
intended to obtain a lascivious image of sexually explicit conduct, or whether
he was merely asking for lawful pictures of the undercover agent.
To determine whether an image is lascivious, the Sixth Circuit has
adopted the factors set forth in United States v. Dost, 636 F.Supp. 828, 832
($.D.Cal.1986). Specifically the court has stated:
The statutory definition of “sexually explicit conduct"
includes the “lascivious exhibition of the genitals or pubic
area of any person.” 18 U.S.C. § 2256(2)(A)(v). This court
uses a six-factor test to assess lasciviousness:
1) whether the focal point of the visual depiction is on the
child’s genitalia or pubic area;
2) whether the setting of the visual depiction is sexually
suggestive, i.e., in a place or pose generally associated
with sexual activity;
3) whether the child is depicted in an unnatural pose, or in
inappropriate attire, considering the age of the child;
4) whether the child is fully or partially clothed, or nude;
5) whether the visual depiction suggests sexual coyness
or a willingness to engage in sexual activity;
6) whether the visual depiction is intended or designed to
elicit a sexual response in the viewer.
United States v. Nichols, 527 F. App'x 344, 346-47 (6th Cir. 2013), citing United
States v. Brown, 579 F.3d 672, 680 (6th Cir.2009) (citing United States v. Dost,
636 F.Supp. 828, 832 (S.D.Cal.1986)). In Nichols, the images deemed
lascivious were of the victim’s pubic area, lying on a bed - “a place generally

Jtot>c

Case: l:14-cr-00278-SL Doc #: 59 Filed: 01/24/16 9 of 9. PagelD #: 576

associate with sexual activity”, and of the victim posed in a sexually-suggestive
manner. Additionally, the victim was nude or partially clothed in several of the
photographs. Id. at 347. Here, no images of such nature were provided nor
requested.
As such, Defendant expects the evidence will show any request made
for images from the undercover agent will not be deemed lascivious as defined
under 18 U.S.C. § 2256(2)(A)(v). in violation of 18 U.S.C. § 2251(a).

EVIDENTIARY ISSUES
Defendant renews and maintains his objections to the introduction of
evidence of prior crimes under Fed. Evid. R. 404(b) as supported by his
submitted briefs and argument presented at the hearing held previously on this
matter. Defendant reserves the right to raise any additional evidentiary issues
that may arise through the course of trial, though at this time no preliminary
matters remain.

Respectfully Subrml

Donald ^rMaiarcik (0061902)
Gorman, Malarcik, & Pierce
54 East Mill Street, Suite 400
Akron, Ohio 44308
p:(330)253-0785
f: (330) 253-7432
e: don@gmpdefense.com

/Oic.

